<html>
<title> - OPEN HEARING: NOMINATION OF DR. CHRISTOPHER SCOLESE TO BE DIRECTOR, NATIONAL RECONNAISSANCE OFFICE</title>
<body><pre>[Senate Hearing 116-174]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-174

                        OPEN HEARING: NOMINATION
                       OF DR. CHRISTOPHER SCOLESE
                        TO BE DIRECTOR, NATIONAL
                         RECONNAISSANCE OFFICE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         WEDNESDAY, MAY 1, 2019

                               __________

      Printed for the use of the Select Committee on Intelligence




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.govinfo.gov 
        
        
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
37-446 PDF                 WASHINGTON : 2020 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas                   MICHAEL F. BENNET, Colorado
BEN SASSE, Nebraska
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk 
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                                CONTENTS

                              ----------                              

                              MAY 1, 2019

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2
Cardin, Hon. Ben, a U.S. Senator from Maryland...................     3

                                WITNESS

Scolese, Ph.D., Christopher, Nominee to be Director, National 
  Reconnaissance Office..........................................     5
    Prepared statement...........................................     8

                         SUPPLEMENTAL MATERIAL

    Questionnaire for Completion by Presidential Nominees........    24
    Additional Prehearing Questions..............................    46
    Posthearing Questions for the Record.........................    77

 
                        OPEN HEARING: NOMINATION 
                       OF DR. CHRISTOPHER SCOLESE 
                        TO BE DIRECTOR, NATIONAL 
                         RECONNAISSANCE OFFICE 

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:05 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Blunt, Cornyn, Sasse, King, 
Harris, and Bennet.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I call this hearing to order. I'd like to 
welcome our witness today, Dr. Christopher Scolese, President 
Trump's nominee to be the next Director of the National 
Reconnaissance Office. Dr. Scolese, congratulations on your 
nomination.
    I'd like to start by recognizing your wife, Dianne, and 
your four children Jenny, Dan, Lauren and Anna. Welcome. Are we 
missing one of them? Oh, back there, okay. Alright. I know from 
personal experience just how important a supportive family is 
and to each of you my thanks and the Committee's thanks and the 
Congress' thanks for your willingness to let your father and 
husband do this. I know from personal experience just how 
important that supportive family is.
    Our goal in conducting this hearing is to consider the 
nominee's qualifications and to allow for thoughtful 
deliberation by our members. Dr. Scolese has provided 
substantive written responses to over 50 questions presented by 
the Committee, which we appreciate.
    Today we're glad to hear from Dr. Scolese in open session 
and we welcome our colleague, Senator Cardin.
    Dr. Scolese graduated from State University of New York at 
Buffalo with a degree in electrical computer engineering. He 
earned a master's degree also in electrical and computer 
engineering and a Ph.D. in systems engineering, both from 
George Washington University. Earlier in his career he served 
honorably in the United States Navy. Prior to his position as 
director of NASA's Goddard Space Center, he served as NASA 
Associate Administrator and the NASA Engineer Chief.
    As I mentioned to others during their nomination hearings, 
I can assure you that this Committee will faithfully follow its 
charter and conduct vigorous and real time oversight of the 
Intelligence Community, its operations, and its activities. 
We'll ask difficult and probing questions of you and your staff 
and we'll expect honest, complete, and timely responses. I look 
forward to supporting your nomination and assuring its 
consideration without delay. I want to thank you again for 
being here with us. I look forward to your testimony.
    I'll now recognize the Vice Chairman for any comments he 
might have.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. And Dr. 
Scolese, I'd like to welcome you and your family and 
congratulate you on your nomination. If you are confirmed, you 
will be the first Senate-confirmed Director of the NRO. This 
Committee added the confirmation requirement to ensure robust 
and effective oversight of our Nation's overhead intelligence 
satellite programs. But it also reflects the importance of NRO 
as a key member of the Intelligence Community. As we discussed 
in our meeting a few weeks ago, technology is changing rapidly, 
and the commercial sector is leading the way, I believe, in 
space. Given advances in technology and the growing threat to 
our space system from China and Russia, NRO has begun to 
embrace a new way of doing business.
    Today there is consensus that, where possible, we should be 
leveraging commercial capabilities to make use of new 
technology, often at a better bang for the taxpayer's buck. I'm 
encouraged by and support NRO's new direction. But I think it 
can move faster still. Dr. Scolese, our discussion a few weeks 
ago led me to believe your experience and approach is the right 
fit for the job. But I want to make sure that you and I agree 
on the stakes at hand. Like the NRO, the Defense Department is 
looking at ways to respond with more agility to threats in 
space, to speed up acquisitions, and to partner with the 
commercial sector. The Administration has decided the best way 
to do this is to reorganize and establish a new Space Force. 
The President's directive on the Space Force explicitly ruled 
out including NRO as part of the new military element, and yet 
Acting Defense Secretary Shanahan testified a few weeks ago 
that ``there is a need to integrate the NRO into the Space 
Force'' when an ``issue of timing precluded its inclusion in 
the initial proposal.'' Dr. Scolese, I need you to address this 
issue head on in your testimony today. The directive didn't 
talk about an issue of timing. It stated that NRO would be 
excluded from the Space Force and there are good reasons for 
this. NRO is an acquisitions organization. It doesn't fit under 
the Air Force or any other service element. In fact, it already 
incorporates military service members within it, including Air 
Force personnel who are already counted as part of the proposed 
Space Force.
    So, if DOD is looking for even more personnel for Space 
Force, NRO isn't the place to look. Over 40 percent of its 
personnel are CIA officers which means that if NRO were to be 
moved to the Space Force, almost half of the NRO wouldn't go 
with it. This would break the organization. The NRO is a key 
member of the Intelligence Community that is 91 percent funded 
by the National Intelligence Program.
    While the NRO informs a number of partners across the 
military, Federal Government and international community, it is 
ultimately responsible for intelligence satellites that deliver 
highly sensitive information to the Intelligence Community. We 
should focus on deepening the NRO's existing partnerships and 
capabilities that are serving the IC well, rather than trying 
to fix something that isn't broken. That's the last thing I'll 
say in the opening comments. I know we've talked about this.
    This Committee will continue to do its oversight over the 
NRO, and we expect its new Director, as the Chairman has 
indicated, to abide by the legal obligation to keep the 
intelligence oversight committees fully and currently informed 
of all significant intelligence activities. The NRO's budget is 
significant and it's classified, which means that the American 
people need to have confidence that you will be responsible 
with their tax dollars and forthcoming with this Committee.
    Dr. Scolese, thank you for your willingness to serve. I 
look forward to your testimony and I promise I won't hold it 
against you that you got Senator Cardin introducing you.
    Chairman Burr. At this time, I'd like to recognize Senator 
Cardin for an introduction.

   OPENING STATEMENT OF HON. BEN CARDIN, A U.S. SENATOR FROM 
                            MARYLAND

    Senator Cardin. Well, thank you very much, Chairman Burr, 
Vice Chairman Warner, and Senator Blunt, it's a pleasure for me 
to introduce Dr. Christopher Scolese to the Committee. I was 
very pleased that President Trump decided to nominate Chris to 
serve as the next Director of the National Reconnaissance 
Office, NRO, and the first to be confirmed by the United States 
Senate. I wholeheartedly endorse President Trump's decision and 
support his confirmation. I support the nomination.
    It's bittersweet, quite frankly, Senator Warner, because we 
are going to lose him at the Goddard Space Flight Center where 
he's held that position as the longest director of Goddard. 
He's done an incredible job in that leadership. To put the 
matter simply, he knows how to put stuff into space and make it 
work.
    I will give you just one example.
    The Terra Mission. Chris was the project manager. Terra was 
supposed to be a five-year earth science mission that has now 
lasted 20 years. Terra explores the connection between earth's 
atmosphere, land, snow and ice oceans, and energy balance to 
further our understanding of the earth.
    I know that NRO is headquartered in the State of Virginia 
but, as Senator Warner knows, Maryland and Virginia have a 
regional commitment to work together in regards to our space 
program. Senator Warner, I was just recently at the Wallops 
Flight Facility on April the 17th for the latest successful 
commercial resupply service launch to the International Space 
Station. Yes, I recognize that is located in Virginia, but 
proud Marylanders helped make that one of the most successful 
facilities that we have. And I visited Goddard, which is 
located of course in Maryland, on March the 4th to discuss the 
impact of the 35-day Government shutdown and the budget picture 
going forward with Chris and Goddard workforce--an incredible 
workforce that is very much motivated by their leader.
    Dr. Scolese certainly has the academic credentials for the 
job. He holds a bachelor of science degree in electrical and 
computer engineering from the State University of New York at 
Buffalo. He earned a master's degree in electrical and computer 
engineering and a Ph.D. in systems engineering from George 
Washington University. After Chris earned his bachelor's 
degree, Admiral Rickover personally selected him to serve as 
the Naval Sea Systems Command where he worked on development of 
instrument and multiprocessor systems for the U.S. Navy and the 
Department of Energy.
    Dr. Scolese's stint in the nuclear Navy from 1978 to 1986 
was just the beginning of a long, distinguished career in 
public service. In 1987 he joined Goddard's Earth Science Team 
and became earth science program manager and deputy director of 
flight projects. Later he moved to NASA's headquarters as 
deputy associate administrator for space science for three 
years before returning to Goddard where he rose to become 
deputy director. Dr. Scolese then returned to NASA headquarters 
first as chief engineer and then as associate administrator, 
the top civil servant of the agency. He served as acting 
administrator from January to July 2009. He went back to 
Goddard to become director in 2012. I went through all that to 
show that he has a long career in public service, where he's 
used his talent to the best interest of our country.
    Moving over to the helm at NRO is a natural fit for Dr. 
Scolese. Since Goddard manages many of NASA's space telescope 
programs, including Hubble Space Telescope and the wide field 
infrared survey telescope, they have technology heritage from 
NRO satellites. I've really gotten to know Dr. Scolese as the 
leader at Goddard. I can tell you he has an excellent 
reputation and working relationship with our Congressional 
delegation. I've met with the workforce many times. He inspires 
all of the workers at Goddard from the most highly skilled to 
those that are essential for the team to work as a team.
    What impresses me a great deal about Dr. Scolese is the way 
that he's engaged younger people into the process. He has had 
over 500 interns at Goddard, and he has been very much 
instrumental in developing the relationships for the next 
generation of leaders to come into public service. Above all, 
Chris is a dedicated public servant with the accolades and 
awards to prove it and I can name many, many awards that he has 
received, and I'll put that into the formal record. I'm glad, 
Mr. Chairman, you mentioned his family. He has a very 
supportive family and I do want to thank Dianne and the 
children for sharing their husband and father with us in public 
service. I have no doubt that he will be a superb NRO Director 
and I'm very proud to be with him today.
    Chairman Burr. Senator Cardin, thank you for that 
introduction. With a history as long and involved as Dr. 
Scolese, you would think that head of black hair might have 
changed. I will assure you the NRO will challenge the color of 
that hair over the next few years.
    Dr. Scolese, would you please stand and raise your right 
hand?
    Do you solemnly swear to tell the truth, the whole truth 
and nothing but the truth, so help you God?
    Dr. Scolese. I do.
    Chairman Burr. Please be seated.
    Dr. Scolese, before you move to your statement, I'd like to 
ask you to answer the five standard questions the Committee 
poses to each nominee who appears before us. They just require 
a simple yes or no answer for the record.
    Do you agree to appear before the Committee here and in 
other venues when invited?
    Dr. Scolese. I do.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the Committee and designated 
staff when invited?
    Dr. Scolese. I do.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the Committee in order to carry 
out its oversight and legislative responsibilities?
    Dr. Scolese. I do.
    Chairman Burr. Will you ensure that your office and your 
staff provide such materials to the Committee when requested?
    Dr. Scolese. I do.
    Chairman Burr. And finally, do you agree to inform and 
fully brief to the fullest extent possible all members of this 
Committee on all intelligence activities rather than only the 
Chair and the Vice Chairman?
    Dr. Scolese. I do.
    Chairman Burr. Thank you very much for that.
    We'll proceed now to your opening statement, after which 
I'll recognize members by seniority for up to five minutes.
    Dr. Scolese, the floor is yours.

STATEMENT OF CHRISTOPHER SCOLESE, Ph.D., NOMINEE FOR DIRECTOR, 
                 NATIONAL RECONNAISSANCE OFFICE

    Dr. Scolese. Thank you, Chairman Burr, Vice Chairman 
Warner, distinguished Members of the Committee. I am honored to 
appear before you as the first Presidential appointee requiring 
Senate confirmation for the position of Director of the 
National Reconnaissance Office.
    I was privileged to meet with members of the Committee to 
hear your views and goals for the NRO and the Intelligence 
Community. I would also like to thank the Committee staff, as I 
know it's a tremendous amount of work that goes into any 
confirmation hearing. I am honored to have been nominated by 
the President. I am also grateful that Acting Secretary of 
Defense Shanahan and Director of National Intelligence Coats 
have the trust and confidence of my ability to serve in this 
new capacity. If confirmed, I look forward to working with you 
and with the extraordinary women and men of the NRO.
    I am profoundly grateful to have my family here with me 
today. My wife of 38 years, Dianne, and our children Jenny, 
Daniel, Lauren and Anna. I'd also like to acknowledge Jenny's 
husband Mark, Dan's wife Moore is not here unfortunately, as 
well as Lauren's fiance Ian and Anna's friend Mike. Their 
unconditional support means the world to me.
    Additionally, I want to remember my parents. They passed 
away many, many years ago. My father was a typewriter repairman 
and my mother was a secretary. They encouraged my sister and I 
to go to college so that we could have a better life and more 
opportunities. I think about them daily and the many sacrifices 
they made for me and my sister so that I could be here today.
    I was born and raised in Buffalo, New York. It was a 
wonderful place to grow up. As a young child I was inspired by 
the space program and space exploration. What intrigued me the 
most were the machines and the computers that made it possible 
to look back at our Earth and to visit other planets. I spent a 
lot of time in school building rockets and electronic devices 
for fun. My science teacher, Mr. Weiss, encouraged me to take 
that fun and enter the Western New York Science Fair, which I 
went on to win with a project calculating the drag coefficient 
of rockets. That early passion set the trajectory for my 
career, a path that has led me to be here today as the nominee 
for the Director of the National Reconnaissance Office.
    Mr. Chairman, I am proud to have had 40 years of service in 
the Navy and NASA. I've been fortunate to be involved with 
diverse systems such as nuclear submarines and spacecraft that 
have been instrumental in protecting our national security and 
advancing our knowledge of the Earth and the universe.
    During the last three decades at NASA I have had the 
opportunity to work on the full range of NASA's missions, from 
sending humans into space to missions that are providing data 
about the earth and the universe. I held various positions 
involved in the design, development, acquisition, launch, and 
operation of space systems, large and small, scaled to 
accomplish our goals.
    Under my leadership, Goddard Space Flight Center developed 
satellites and space systems to meet requirements for NASA and 
other organizations. To accomplish these missions, I challenged 
the teams I led to develop new capabilities, seek opportunities 
to inject new technologies, leverage commercial capabilities, 
and collaborate with partners. I ensured that the valuable 
lessons we learned were incorporated into plans that have 
resulted in improved performance on recent missions, meeting 
technical costs, and schedule requirements. These best 
practices have been applied across a range of missions for NASA 
and other organizations, such as NOAA and the USGS.
    I also found that it is critical to communicate often with 
all parties involved to ensure that common understanding of 
progress and risk so adjustments can be made when necessary and 
when they are still affordable. It was also clear to me while 
leading Goddard that interagency cooperation and collaboration 
is key to success at the national level. If confirmed, I will 
make interagency collaboration a priority at the NRO.
    Additionally, the growth of a commercial space industry 
capable of launching satellites and providing data is an 
opportunity that should be leveraged to replace or enhance 
required capabilities. At the same time, the continued advance 
of technology in all areas from artificial intelligence to 
material science provides an opportunity to maintain our 
national space advantage in an increasingly competitive and 
contested environment. The combination of commercial 
capabilities, technological advancements, and Government-
developed systems provides opportunities to expand the supplier 
base, improve performance, reduce cost, and enhance resiliency.
    In organizations, people are at the heart of its success. 
At NASA I have had an opportunity to lead a large, diverse 
workforce. Nothing can be accomplished without the talented men 
and women who are motivated to accomplish the mission. I am 
proud to be part of NASA, which has been ranked as the best 
place to work in Government for the past seven years. I am also 
proud of creating an environment at Goddard that was also 
ranked as one of the best places to work in Federal Government. 
If confirmed, I am committed to fostering an environment at the 
NRO that welcomes diverse views, invites new concepts, and 
energizes its workforce every day. This includes recruiting, 
training, and retaining a world-class workforce, allowing the 
NRO to provide premier space reconnaissance capabilities.
    In closing, the NRO is one of the fabled organizations of 
the Space Age and the capabilities that it has provided have 
been instrumental in maintaining the United States' strategic 
advantage. The NRO helps keep our country and the world safe 
from those who seek to do us harm. I am honored to be 
considered for this position. If confirmed, I look forward to 
working closely with this Committee and the entire Congress to 
leverage our opportunities and address our challenges. If 
confirmed, I will seek your support for the women and men of 
the National Reconnaissance Office and to ensure that the NRO 
has the support it needs to continue developing and operating 
the world's premiere reconnaissance satellites delivering 
critical intelligence to policy makers, intelligence analysts, 
and war fighters.
    Mr. Chairman, I want to thank you and the Committee for the 
hard work that it put into the oversight process. If confirmed 
as Director, I will uphold the National Reconnaissance Office's 
obligations to Congress and the American people.
    Chairman Burr, Vice Chairman Warner, and distinguished 
members of the Committee, thank you the opportunity to appear 
before you today. I look forward to answering your questions.
    [The prepared statement of Dr. Scolese follows:]


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Dr. Scolese, thank you very much for that 
testimony and once again thank you to your family for their 
willingness to go along with this.
    Before we begin, I'd like to advise members that pursuant 
to Senate Resolution 400, Dr. Scolese's nomination will be 
referred to the Senate Armed Services Committee after our 
Committee reports his nomination to the full Senate. It's my 
intention to move to a Committee vote on this nomination as 
soon as possible.
    Therefore, for planning purposes, if any members wish to 
submit questions for the record after today's hearing, please 
do so by close of business today. With that, the Chair would 
recognize himself for up to five minutes and then members by 
order of seniority.
    Dr. Scolese, in your response to the Committee's additional 
prehearing questions, you recognized that the NRO, and I quote, 
``maintains close partnerships across the IC and with defense- 
and space-facing organizations such as the National Security 
Agency, the CIA, Defense Intelligence Agency, National 
Geospatial Intelligence Agency, Air Force Space Command, U.S. 
Strategic Command, National Aeronautics and Space 
Administration.'' You further stated that if confirmed you 
would work with IC partners such as NSA and the NGA to ensure 
NRO-developed mission-models are leveraged across the IC to 
maximize their value.
    Do you support the NRO remaining as an element of the 
Intelligence Community?
    Dr. Scolese. I do.
    Chairman Burr. How would you respond to those who propose 
to move the NRO from the Intelligence Community, for instance, 
to be part of Space Force?
    Dr. Scolese. Senator, I recognize that SPD-4 was very clear 
in identifying that NRO was separate from the Space Force. I 
think that's the correct way to go as the NRO supports the 
Intelligence Community, the Department of Defense, the 
combatant commanders, as well as the civil community. And as 
such it has broad responsibilities that I believe can best be 
satisfied with the current arrangement with the NRO separate 
from the Space Force.
    At the same time, I recognize if the Space Force is 
created, the NRO must collaborate with it as it does with the 
other services and the Air Force today.
    Chairman Burr. You moved from an institution where you sort 
of have full control over what you're doing and the impact that 
you're trying to make. And now you'll lead an agency that 
really does supply customers with very specific information. 
How would you guarantee that NRO meets those requirements for 
the Intelligence Community?
    Dr. Scolese. Actually, I have experience with that at NASA. 
Many of our missions, particularly at the Goddard Space Flight 
Center, support other organizations such as NOAA and the U.S. 
Geological Survey, as well as supporting the science community. 
Those organizations typically develop their requirements and 
their desires and it's our responsibility to work with them to 
understand how we can best accomplish the set of requirements 
that they've developed, and that includes a discussion about 
the resources that we have available to us, the technological 
capabilities that are available, perhaps commercial and other 
organizations that may be providing similar data or maybe 
exactly what they're looking for. I would intend to bring that 
experience to the National Reconnaissance Office, if confirmed, 
to go off and do that. So, supporting a diverse customer base 
and developing a mission based on requirements would be 
something that I have some considerable experience with.
    Chairman Burr. Let's talk about your workforce.
    What are your plans for recruiting and retaining those with 
a science, technology, engineering, arts, and math expertise if 
confirmed?
    Dr. Scolese. I believe one of the most important things in 
retaining a workforce and attracting a workforce is having an 
exciting mission. I've been fortunate in NASA to have that and 
I believe that the NRO has a very exciting mission. Space is 
exciting. Supporting our national defense and our national 
security is critical and provides people with an opportunity to 
serve their Nation and in ways that they best can do it.
    I also believe that it's important to create an environment 
where people can understand that their views will be respected, 
that their personal views will be respected, that they have an 
opportunity for advancement, and that they can use their 
creativity to develop new capabilities and to support the war 
fighter and the intelligence analysts. So, it would be my 
intent to go off and work that. At the same time, I recognize 
it's important to create a pipeline. It's been something that 
is relatively easy at NASA because we don't have to worry about 
security clearances as much. But I believe it's something that 
needs to be looked at at the NRO, particularly now that there 
is a cadre of NRO professionals to go and partner with 
organizations so that we can in fact establish contacts with 
people in college, for sure, and maybe even in high school to 
encourage them to pursue careers in STEM--and hopefully view 
the NRO as an object where they would want to work at.
    Chairman Burr. If the Vice Chairman has his way, the 
security clearance problem will go away and be fixed, and we'll 
praise him for his work. With that, I recognize the Vice 
Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    And I appreciate the Chairman's first couple of questions. 
I want to come back to them as well. The Chairman and I wrote a 
letter to SASC [Senate Armed Services Committee] and the 
Appropriations Committee on April 22 noting our concern with 
Acting Secretary Shanahan's recent testimony about the need to 
integrate NRO into the Space Force. In an answer to the 
prehearing question, and I appreciate your answer to the 
Chairman, you wrote, quote, ``one of the guiding principles in 
the standup of the Space Force is to minimize risk to 
mission.''
    Do you think, in your opinion, would moving NRO to Space 
Force or reorganizing it in some ways hit that goal of 
minimizing risk to mission?
    Dr. Scolese. Any change in an organization typically needs 
to be done very carefully, otherwise you could increase risk. 
So, any changes need to be evaluated very carefully and 
understood before they're implemented to make sure that you 
don't impact the mission. And as I mentioned, I believe that 
the NRO should stay separate as indicated in SPD-4 and that 
would allow the NRO to continue to pursue its mission as well 
as it does today.
    Vice Chairman Warner. With an organization that's funded 91 
percent by the National Intelligence Program, and clearly this 
Committee feels very strongly on this. I appreciate your 
testimony today and earlier conversations that you will resist 
these bureaucratic moves to potentially roll NRO into Space 
Force. I hope as you move forward, and I hope you will move 
forward in your nomination, that you will constantly turn to 
this Committee if you need assistance on that challenge going 
forward.
    I want to move to another area that the Chairman and I have 
been working on. I think we've made some progress in certain 
areas like radar, but we're very concerned that the pace of 
development and acquisition at NRO historically has been pretty 
slow and--with almost Moore's Law hitting satellites now--if 
you've got a two-year requirements document and then a two-year 
RFP, you know you may have technology that may have leapt over 
your whole process.
    How can you take some of the lessons you've learned at 
NASA, bring them over to NRO, to speed up this development 
acquisition process?
    Dr. Scolese. One of the things that we did at NASA is 
recognize that commercially developed satellites, as an 
example, are extremely capable and can greatly increase the 
pace at which we can field missions. We called it the Rapid 
Space Craft Development Office and we've had great success with 
it. It allows us to buy a satellite that we know will work, 
that the commercial sector has developed, and then we focus on 
the things that the Government needs to do--the scientific 
instruments or the detection technologies that are required--
that reduces our cost-risk because we're buying a satellite 
that we know is going to operate. We know what it's going to 
cost. It allows us to focus on the technologies that we need to 
advance in order to accomplish a mission. It gets the mission 
done quicker because you know the interface that you're going 
to have to work with, because a spacecraft is built, and it's 
proven to be extremely valuable. Our weather satellites today, 
as an example, we demonstrated this to NOAA with a satellite 
called the ``Suomi NPP,'' where we used a commercial satellite 
and put weather satellites on it--developed it very quickly to 
fill a gap--and now our polar weather satellites are built that 
way. It gives us a greater variety. It gives us more resilience 
because now we can go to other vendors that have satellites 
that will operate in that orbit. And in fact, have demonstrated 
that we can do that. The U.S. Geological Survey is now relying 
on those types of satellites and that mission development for 
the Landsat satellites which we have built relatively quickly. 
We'd like to go faster still, but instrument development has 
been a challenge. In addition, we have worked with other 
organizations, commercial organizations, and in fact just a 
little bit ago, about six months ago, we launched a sensor on a 
commercial communications satellite demonstrating the ability 
to do science that way as well.
    Vice Chairman Warner. I'm going to get one last question 
in, and I appreciate those examples. I also appreciate your 
references to the ability to partner with commercial. I want to 
personally thank you for coming with the NASA administrator 
last week to Wallops, and as you know, a lot of investment is 
going in at Wallops, including a new classified payload 
processing facility that we both toured. NRO has already 
scheduled a couple of launches out of Wallops this year.
    My last question is: if confirmed at NRO how would you view 
the mission of NRO in terms of launch and the ability to 
further partner with this new state-of-the-art facility at 
Wallops?
    Dr. Scolese. Wallops Flight Facility is part of my current 
responsibilities as director of Goddard Space Flight Center. 
It's a wonderful capability that we should certainly take 
advantage of and having a diversity of launch. It's certainly 
beneficial to the Nation, and Wallops should play an absolutely 
critical part. As we discussed last week, we now have an 
ability to process classified payloads and we have a range of 
launch vehicles that we can support there. So, it very much can 
support the NRO mission as well as commercial and NASA 
missions.
    Vice Chairman Warner. I look forward to continuing the 
conversations we started last week. Thank you, Mr. Chairman.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Dr. Scolese, congratulations on your 
nomination. I wonder if you would describe the state of our 
Government's work in space, including NRO's, relative to our 
international competitors: Chinese, Russians, others, Indians. 
Could you give us sort of an overview of where do you think we 
stand and where we're stronger, where we have some 
vulnerabilities compared to our peers?
    Dr. Scolese. Yes, Senator. Overall, I believe the United 
States is still the leader in space exploration and in overhead 
reconnaissance. But I recognize that we're existing in a much 
more competitive environment where our competitors in Russia, 
in China, and in others are developing capabilities that are 
approaching the capabilities of ours. And it's something that 
we need to focus on to constantly stay in front of, by 
investing in the technologies and working with partners in the 
commercial industry and our colleagues in other nations to 
enhance our capabilities.
    I'd also recognize that we're under an increasing threat 
both from physical attack--the most recent demonstration was 
the ASAT that India demonstrated a few weeks ago--that 
increases the challenges that we have to our overhead 
reconnaissance and our satellites. And also, cyber-attacks. Our 
ground systems need to be secured and protected against those 
types of attacks so that we can maintain control of our 
satellites. So, we're existing in a much more congested and 
contested environment and it's our responsibility to 
continually find ways to improve our resiliency through 
technological advance, partnerships with others, reliance on 
other systems so that we have a diversity of systems and if 
confirmed as Director of NRO, I would certainly pursue those 
goals.
    Senator Cornyn. Well, it seems to me one natural advantage 
America has over our competitors around the world is our 
vibrant, innovative private sector. You've talked a little bit 
about how to leverage the private sector, but it seems to me 
there are also some challenges when there's not a lot of 
competition available for some of these missions and some of 
these products. Of course, the Army has just created the Army 
Futures Command to try to leverage some of the private sector 
innovation and lower cost and stay ahead of our competitors. 
But what other steps do you think we need to take in order to 
increase competitive opportunities so that we can continue to 
maintain our technological edge compared to our competitors?
    Dr. Scolese. I think we're at a good time in our country 
with increasing number of commercial organizations that can 
provide launch across a range of capabilities from small to 
large as well as a burgeoning satellite manufacturing 
capability ranging from CubeSats to larger satellites. And I 
recognize that the NRO and other organizations, NASA included, 
are adjusting their architectures to deal with that--to allow 
for more opportunity for different vendors to compete and have 
an opportunity to enhance our capabilities by providing us new 
technologies or by providing us manufacturing capabilities that 
typically the Government sector doesn't have and will allow us 
to produce more systems more quickly to allow us to keep that 
technological advantage over our adversaries.
    So, I think the combination of a strong commercial sector 
now and a burgeoning commercial sector that gives us a full 
range of capabilities will really enhance our ability to stay 
at the forefront of national defense and protecting our 
country.
    Senator Cornyn. Will you pledge to do everything you can 
within your authorities to try to maintain that sort of 
competition so that we don't get stuck with sole source either 
products that basically hold the taxpayer hostage and denies 
this great competitive opportunity we have in terms of keeping 
our technology at the forefront?
    Dr. Scolese. If confirmed, and as part of my career, I have 
always supported competition. I will continue to support 
competition.
    Senator Cornyn. Thank you.
    Chairman Burr. The Chair is going to recognize himself for 
a few more questions.
    Dr. Scolese, leaks of classified information put sensitive 
sources and methods at risk, causing irreparable damage to our 
national security. In your responses to the Committee's 
additional prehearing questions you stated that safeguarding 
our classified information and capabilities is a fundamental 
requirement for success. If confirmed, how do you plan to 
address the security of sensitive and classified information?
    Dr. Scolese. My understanding of how the NRO does that is 
something that we would have to continue to do by making sure 
that we hire the right people. That they have the right 
background checks that are on the personnel side. Also, we have 
to recognize that cyber-attacks are also critical and while I'm 
not fully briefed on the capabilities of the NRO, I do know 
that it's a national interest. It's something that NASA faces 
each and every day and we work to make sure that our systems 
are secure.
    I recognize that it's an ever-changing environment and 
we're going to have to adapt and constantly improve our 
cybersecurity techniques as well as working our physical 
security for our systems. And intellectual property, working 
with our vendors and the university environment to assure that 
we protect that intellectual property that's absolutely 
critical for our national defense, while at the same time 
allowing those technologies to be used to benefit our 
commercial sector and advance our competitive advantage 
throughout the world. So, it's a complicated balancing of 
capabilities, but something that I'm fully committed to and 
something that I've had a lot of experience with at NASA.
    Chairman Burr. One last question. Will you commit to 
reporting to this Committee any security breaches that you find 
have happened and the process NRO makes towards preventing and 
deterring unauthorized disclosures of classified information?
    Dr. Scolese. Yes, I will.
    Chairman Burr. Vice Chairman.
    Vice Chairman Warner. Let me also just say to your family 
the fact that we're little light on attendance this morning is 
actually a good sign.
    You know one of the things that you're going to bring, and 
Senator Cardin went through your background--extraordinarily 
impressive--but you are going to be moving from the kind of 
rocket-scientist world to the Intelligence Community world. I'd 
like you to talk to that.
    And one of the things I think clearly NASA has done better 
than NRO--we've got to make sure that the workforce looks like 
the rest of America in terms of diversity, in terms of women. 
Can you speak to efforts that may have taken place at NASA and 
how you might bring that same notion to NRO to make sure NRO's 
more reflective of what America looks like and specifically how 
do you think the transition will go from the NASA rocket 
science nonclassified world, in most part, to taking on 
leadership of one of the most critical components of the whole 
Intelligence Community?
    It's a two-part question.
    Dr. Scolese. It's two part. I understand, Sir. My 
experience at NASA and looking at my understanding what the NRO 
does are actually very similar. At Goddard in particular, we 
develop satellites, either in house or more commonly with the 
industrial sector and a broad spectrum of the industrial 
sector. So, we design and build satellites that operate in 
earth's orbits similar to what the NRO does, different purpose, 
but looking down at the earth, operating in often the same 
regime. We share, many times, vendors, the suppliers of 
satellites and rockets. We use typically the same. We also work 
together very closely in assuring that our supply chain is 
meeting the needs of the community. So, we have a lot of 
interaction there. And we work in technological areas. So, a 
lot of the experience that I have at NASA, particularly at 
Goddard, is very relevant to the NRO function and performance. 
The specific details may be different in terms of how we task 
our satellites to do things and who has the authority to task 
the satellites.
    But we still do tasking; for instance, the Hubble Space 
Telescope has to be tasked, and the Landsat satellites have to 
be tasked in order to acquire whatever data that they may need 
to look at. So, very similar functions and I can bring that 
knowledge there. There are certainly things that I will be 
learning if confirmed at NRO. So, I think we have, you know, 
very complementary and similar objectives and work with a 
similar supplier base, if you will, and can bring slightly 
different experiences to the NRO that may benefit the mission.
    From a diversity and inclusion standpoint, as you 
mentioned, at NASA we have a very diverse workforce, 
particularly at Goddard, and it's been a focus of mine as the 
director of the Goddard Space Flight Center.
    One of the reasons I believe that Goddard has performed so 
well as one of the best places to work within NASA and within 
the Government is because of our diverse workforce. Some of the 
things that we have done there is create advisory committees 
where the various groups within the organization, we have a 
woman's advisory group. We have an African American advisory 
group, Hispanic. We also have a veteran's advisory group. So, 
we try and work with the communities to understand what are the 
issues that the organization is supporting or not supporting. 
They tend to be very positive and constructive discussions 
about what we can do from an organizational standpoint, what's 
in our control and how we can improve the environment at the 
center.
    I would bring that same type of experience to the NRO, if 
confirmed, and bring the same commitment to diversity and 
inclusion which includes establishing a pipeline. It's not just 
putting the right people in the right job, but it's making sure 
that people have an opportunity to advance and that there is a 
pipeline all the way from the university, for sure, all the way 
up to the most senior positions in the organization.
    Vice Chairman Warner. It sounds like Goddard knows where 
you got a very robust internship program.
    Dr. Scolese. Yes, we do.
    Vice Chairman Warner. Little harder on the intel side but 
something that I hope you'll try to explore.
    Dr. Scolese. I will definitely try and explore that and 
that's one of the reasons for having the pipeline. The reason I 
mentioned the advisory committees is because we ask them to go 
off and talk with people from their universities and say, hey, 
Goddard is a great place to come and work at and you can see 
I'm there and what I can accomplish. So, yes, we want to 
establish that pipeline and I would, if confirmed, work at NRO 
to try and establish an internship program that would allow us 
to start that pipeline up.
    Vice Chairman Warner. And I have no further questions. 
Senator King I'm sure will have a question or two, but the one 
thing that is a little unique at NRO also is their special 
relationship with NGA. And I think things have been pretty good 
on that front the last few years and I know from our earlier 
conversation you'll commit to make sure that strong partnership 
as one of your premiere customers will continue.
    Thank you, Mr. Chairman.
    Dr. Scolese. Absolutely.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Dr. Scolese, I'm sure you're aware of the GAO report that 
recently came out. It's not very encouraging. It indicates a 
deterioration in cost performance and on-time launch 
performance. Are you aware of this report? Have you seen this?
    Dr. Scolese. Yes.
    Senator King. What do we do about it?
    Dr. Scolese. One of the things that's very important is to 
learn from all of our experiences at NASA and at Goddard in 
particular, we had the opportunity to work with many different 
organizations and accomplish many different missions. One of 
the things that I did as chief engineer, and continued on while 
I was in other positions, was to go off and look and understand 
why our missions didn't perform quite as well as we would like 
in terms of cost and schedule. Technically, they have met their 
objectives and done that very well. We developed some 
guidelines for missions to follow and since we adapted those 
guidelines, most of the science missions at the Goddard Space 
Flight Center have in fact performed at or better than 
expected. So, it's lessons learned that are absolutely critical 
to take forward.
    Senator King. Are you open to cooperating with GAO? 
Including their people in your analysis and reports on what 
you're doing? I think GAO is an important asset.
    Dr. Scolese. Absolutely. And in fact, when I mentioned the 
study we did, we relied heavily on GAO's reports from the past 
and at that time current reports and we continue to look at 
those and take those extremely seriously.
    Senator King. You have tremendous experience. There's no 
doubt about that and your background is exceptional for this 
position. On the other hand, one of the differences is that 
NASA is a wholly civilian, sort of on its own timeline. I'm 
about to use a phrase I haven't heard in a long time. ``Space 
race.'' We're now in a space race. And it's a race not only in 
terms of getting hardware up there, but what the hardware is 
and what it can do and what the capabilities are. This is not 
an academic research exercise. This is a very serious national 
security question.
    Are you prepared to make the switch from NASA to NRO in 
terms of the orientation toward the urgency of this enterprise?
    Dr. Scolese. Absolutely. At Goddard we also have 
participated in national security. We support the NOAA and the 
USGS in providing the weather satellites and the environmental 
satellites that our Nation relies on to not only predict the 
weather but to predict severe storms. And I recognize that the 
NRO is a different mission, but it's similar to what we have 
done at NASA and if confirmed, I believe I can shift over to 
the requirements and responsibilities of the NRO.
    Senator King. At Goddard and NASA were you involved in the 
sort of discussion as between larger satellites, smaller 
satellites? Do you feel that smaller satellites is an important 
direction that we have to go in terms of both speed of 
deployment, resiliency, and all those things? Give me your 
thoughts on small versus large in space.
    Dr. Scolese. Absolutely. I believe that there's room for 
all types of satellites, and small satellites certainly play an 
important role. They are satellites that we can develop quicker 
to develop, to identify, to mature technologies, and 
demonstrate capabilities at a higher pace than you can with 
larger satellites. At the same time, we have to recognize that 
there are physics that may determine the size of a satellite. 
But certainly, smaller satellites are something that are 
critical. They can improve, as I said, our ability to address 
technologies, to demonstrate capabilities, to enhance our 
resilience, to get capabilities up there sooner. And we have 
utilized those at NASA, and if confirmed I would bring that 
same intention to the National Reconnaissance Office.
    Senator King. Two points and my time is about to run out. 
One is the importance of close, close, close communication and 
collaboration with NGA to be sure that we're doing what they 
need in terms of their being the customer and their ultimate 
customers in the Intelligence Community. I think that's 
incredibly important. And I think the word for the future is 
going to be resiliency and I think that's got to be a top of 
mind consideration in all of our future space endeavors based 
upon what we know is happening out in the competitive world and 
I hope you'll bear that in mind.
    Dr. Scolese. Absolutely.
    Senator King. Thank you very much. Appreciate it. Thank 
you, Mr. Chairman.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you, Mr. Chairman.
    Dr. Scolese, thank you for your years of service at NASA. 
You have an extraordinary background and in many ways, I 
believe you're a great fit for this position. But I notice that 
you have not worked in the Intelligence Community before. So, 
it's obviously going to be a unique experience and you'll be 
leading a large organization. I know in my short time in the 
Senate I've had to learn all the acronyms and of course there's 
lots of secrecy involved in the work of the IC.
    So, what do you anticipate as being the greatest challenge 
for you in making the transition into the IC?
    Dr. Scolese. I have experience working with the NRO and 
other organizations, the Air Force, the Navy. Early in my 
career for sure in the Navy. So, I have experience working in a 
classified environment and supporting that. Certainly, you're 
right. Learning all the new acronyms will certainly be a 
challenge. However, I think my background in space systems 
development and acquisition and my understanding of the NRO's 
you know responsibilities overlap very well. There will be 
differences clearly in how NASA did it and NRO did it and how 
it needs to be done in the Intelligence Community but I'm 
certain that I can learn those quickly and become a 
contributing member.
    Senator Harris. Great. And at NASA you've been--and I thank 
you for this--a proponent of adoption of cutting-edge 
commercial technology and integrating those into programs. So, 
if confirmed how would you accelerate the rate of technology 
adoption at the NRO?
    Dr. Scolese. I think the similar way to what you would do 
it in any organization, which is to establish a technology 
pipeline, so that you have technologies that you're working on, 
that address questions that you think may be out there, or 
capabilities that may be needed five years from now or ten 
years from now. Understanding what others are doing as well 
because you don't have the answers in all cases so 
understanding what's going on in universities, understanding 
what's going on in industry, and sharing that with the user 
community--with the NGA, the NSA, and the broader community 
that's out there in the Department of Defense and the 
Intelligence Community--so they can understand what you're 
working on, what you think has benefit, and harmonize that with 
the requirements that they see currently so that you can 
improve performance today either by acquiring better data or 
reducing cost or improving resiliency or addressing a question 
that we think is going to come out in the future. And 
collaborations and recognizing the capabilities of the 
commercial sector as well as our partners internationally and 
in other agencies to enhance the mission.
    Senator Harris. And I appreciate your point about the need 
for interagency communication and sometimes we do that well in 
Government and sometimes we don't.
    How do you propose to be effective with that goal?
    Dr. Scolese. Something we have experience with at the 
Goddard Space Flight Center is we acquire the weather 
satellites for NOAA, and we acquire the land remote sensing 
satellites for the U.S. Geological Survey. I would bring that 
experience to the NRO. The main thing is to have frequent and 
regular communications so we understand both what is desired by 
the user community, and understand whatever issues they may 
have with the performance of our organization, and at the same 
time explain the other way what our challenges are, what our 
accomplishments are, so that we can come to a common 
understanding of where we are, what our risks are and be able 
to address those quickly and effectively and not just have a 
phone call when there's a problem.
    Senator Harris. And then, I've just about a minute left, 
but on the subject of AI technology, what areas of the NRO's 
mission do you think would benefit from an incorporation and 
adoption of AI?
    Dr. Scolese. My experiences in AI can support all aspects 
of the mission. Certainly, in terms of determining which data 
from a huge dataset is of interest to the intelligence analysts 
or the combatant commander along with understanding the 
complexities of managing a constellation of satellites as we 
move into constellations. We've even found that AI can help us 
in identifying causes for anomalies on spacecraft or ground 
systems. So, AI I think can help us across the spectrum of 
capabilities that the NRO provides.
    Senator Harris. Thank you.
    Chairman Burr. Thank you, Senator Harris and Senator King.
    All good things come to an end. This has now come to an 
end, based upon the folks that are here.
    Chris, I want to thank you again for your 40 years of 
service, more importantly for what I think is the biggest 
commitment of your career and you're well prepared to do it.
    Your comments about partnering with a commercial satellite 
platform to fill a gap for NOAA reminded me that no agency is 
going to be impacted by the acceleration of technology more 
than the NRO. And as you know, in this town the architecture 
isn't designed for things to happen quickly. But intelligence 
is a function of getting what you need as quickly as you can so 
that policy makers and warfighters can make the right 
decisions. This has been a tough road to try to culturally 
manipulate at NRO, and I say that not as a criticism. I really 
say it because it's a commitment to do things differently.
    It's a challenge for us to unleash the talents and the 
expertise at NRO to exceed what your customers expect. And 
those expectations are on content, on frequency. I think the 
day that as NRO Director you fill those gaps that exist around 
the world that are persistent right now, you will have exceeded 
customers' expectations. I think the Vice Chairman and I are 
reminded every day that we look at what NRO does and one of the 
things we've asked for years was: my God why does it cost so 
much to launch these things? And how can we get launch costs 
down?
    Well, you know, that's just a reality of dealing with big 
things. And along came Elon Musk and there were a number of 
things, competition. Had SpaceX not done what they did, then we 
might still not have boosters that return to where they 
launched from, and if they didn't return to where they launched 
from we wouldn't have learned that geez if you reuse a used 
booster, the insurance cost of that relaunch is actually 
cheaper than the first launch because they know it works. And 
so, what brought down significantly launch costs, brought down 
further as we experienced it on things that we weren't even 
looking for. The way this Committee looks at it, that's savings 
that we're able to pump back into big or small platforms, to 
push research and development of technologies.
    My parting comment to you is this: Be a leader.
    I think you will be. Challenge the great talent that's at 
NRO to perform better, to have more partnerships, not just to 
rely on a contractor to put the array of new technologies out 
and say: here's the buffet, pick what you want. Listen to your 
customers and search through every means possible to see what 
technologies are out there, if just reconfigured in a different 
way might better fit the needs versus just what you're being 
offered.
    I think Senator King hit on a very important thing. We have 
no choice. We have to be faster. We have to concentrate more on 
providing the technologies that provide the customers the 
products that they need. I will tell you that as a Committee we 
realize that with a faster pace brings a higher level of risk.
    The challenging thing for us is that we're transitioning 
but we still look at life expectancies that far exceed the 
technology that's hanging on the platform. And it's time that 
we get the platform design life in sync with what is a 
scheduled technological change in what we've got the 
capabilities to do. That's a transition that can only take 
somebody that's been in a role like you've been in. So, I 
personally look forward to the leadership and the challenges 
that you will challenge the workforce to, because I think they 
are incredibly talented and will meet whatever expectations you 
set for them.
    So, let me say you have the full support of this Committee. 
We'll expedite your nomination as quickly as we possibly can. 
My hope is that we can take it up on the floor as quickly as we 
report it, and I'll count on the members of this Committee to 
push that. We'd like to have you there tomorrow if we could. 
It's not going to work quite that fast.
    I will apologize once again to your family: if you thought 
he kept long hours before, they're going to be longer now--and 
take a snapshot because his hair will be gray in a couple of 
years. And they will be well earned.
    Thank you for your willingness to do this.
    This hearing is adjourned.
    Dr. Scolese. Thank you, Sir.
    [Whereupon at 10:07 a.m. the hearing was adjourned.]

                         Supplemental Material


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre></body></html>
